No. 19-1176

 

 

IN THE

Supreme Court of the United States

FRESNO COUNTY SUPERINTENDENT OF
SCHOOLS,

Petitioner,
Vv.

AILEEN RIZO,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,106 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 27, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
